Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




       INVALID PRESCRIBER
    IDENTIFIERS ON MEDICARE
      PART D DRUG CLAIMS




                    Daniel R. Levinson
                     Inspector General

                       June 2010
                     OEI-03-09-00140
I N T R O D        U C T               I O N
    E X E C U T I V E                                          S U M M A R Y


                    OBJECTIVE
                    To determine the extent to which invalid prescriber identifiers were
                    used on Part D prescription drug event (PDE) records in 2007.


                    BACKGROUND
                    The Medicare Prescription Drug, Improvement, and Modernization Act
                    of 2003 established Part D to provide an optional prescription drug
                    benefit for all Medicare beneficiaries. The Centers for Medicare &
                    Medicaid Services (CMS) contracts with private companies, called plan
                    sponsors, to administer the benefit through Part D drug plans.

                    Part D plans must submit an electronic record, called a PDE record, to
                    CMS for each covered prescription filled for their enrollees. CMS
                    requires that most PDE records contain an identifier for the drug’s
                    prescriber. Acceptable prescriber identifiers include National Provider
                    Identifiers (NPI), Drug Enforcement Administration (DEA) registration
                    numbers, Unique Physician Identification Numbers (UPIN), and State
                    license numbers.

                    To determine the extent to which invalid prescriber identifiers were
                    used on Part D claims, we compared prescriber identifiers that
                    appeared on PDE records in 2007 to identifiers enumerated in NPI,
                    DEA number, and UPIN registries. We excluded from our review PDE
                    records that contained prescriber identifiers classified as State license
                    numbers because we did not have access to a national database of State
                    license numbers and these records made up only 1.3 percent of all
                    Part D claims in 2007.

                    We considered prescriber identifiers to be invalid if they did not appear
                    in any of the three registries. Prescriber identifiers that were
                    deactivated or retired before January 1, 2006, were also considered to
                    be invalid for the purposes of our review.


                    FINDINGS
                    $1.2 billion in Medicare Part D prescription drug claims contained
                    invalid prescriber identifiers in 2007. Part D plans are required to
                    include prescriber identifiers on PDE records they submit to CMS.
                    However, Medicare drug plans and enrollees paid pharmacies $1.2 billion
                    in 2007 for more than 18 million prescription drug claims that contained
                    527,749 invalid prescriber identifiers. These identifiers either were not


 OEI-03-09-00140    I N VA L I D P R E S C R I B E R I D E N T I F I E R S   ON   M E D I C A R E PA R T D D R U G C L A I M S   i
E X E C U T I V E                          S U             M M A R Y


                   listed in NPI, DEA number, and UPIN registries or had been deactivated
                   or retired before January 1, 2006. PDE records that contained invalid
                   prescriber identifiers accounted for 2 percent of all PDE records
                   submitted to CMS in 2007.
                   Identifiers on 17 percent of the drug claims with invalid prescriber
                   identifiers did not conform to format specifications. Each type of
                   prescriber identifier has specific length and format requirements. For
                   17 percent of the PDE records that contained invalid prescriber
                   identifiers, the identifiers did not conform to length or format
                   specifications. Medicare drug plans and enrollees paid pharmacies
                   $213 million in 2007 for PDE records with invalid prescriber identifiers
                   that did not follow format specifications.
                   Ten invalid identifiers accounted for 17 percent of the drug claims
                   with invalid prescriber identifiers. These 10 prescriber identifiers are
                   the same length as a valid DEA number. However, we confirmed with
                   DEA that nine of the identifiers were never valid DEA numbers and the
                   remaining identifier had been retired in 2005. Medicare drug plans and
                   enrollees paid pharmacies $237 million in 2007 for drug claims that
                   contained these top 10 invalid identifiers. A single invalid identifier
                   accounted for $105 million of this amount. We also found that 5 of the
                   10 top invalid identifiers appeared on individual drug claims with
                   payment amounts totaling more than $10,000 per claim. Finally, a single
                   company that is a large pharmacy benefit manager and mail-order
                   pharmacy accounted for the majority of PDE records that contained one
                   of the top invalid prescriber identifiers.


                   RECOMMENDATIONS
                   Prescriber identifiers are valuable Part D program safeguards. These
                   identifiers are the only data on Part D drug claims to indicate that
                   legitimate practitioners have prescribed medications for Medicare
                   enrollees. The success of program integrity efforts may be limited
                   without valid prescriber identifiers on Part D drug claims.

                   Our evaluation found that $1.2 billion in Part D drug claims for 2007
                   contained invalid prescriber identifiers. We conclude that CMS and
                   Part D plans have not instituted adequate procedures to detect invalid
                   prescriber identifiers. CMS and Part D plans do not verify that
                   prescriber identifiers are enumerated in DEA number, NPI, or UPIN
                   registries, nor do they apply claims-processing edits to check prescriber
                   identifiers against known format requirements.

 OEI-03-09-00140   I N VA L I D P R E S C R I B E R I D E N T I F I E R S   ON   M E D I C A R E PA R T D D R U G C L A I M S   ii
E X E C U T I V E                          S U             M M A R Y


                   To address these concerns, we recommend that CMS:
                   Conduct periodic reviews to ensure the validity of prescriber identifiers
                   used on PDE records.

                   Require Part D plans to institute procedures to (1) identify invalid identifiers
                   in the prescriber identifier field on Part D drug claims and (2) flag for review
                   Part D drug claims that contain invalid identifiers in the prescriber identifier
                   field.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with both of our recommendations. CMS stated that it
                   agrees that invalid prescriber identifiers can hinder program oversight
                   efforts for monitoring prescribing practices, but that invalid prescriber
                   identifiers are not an automatic indication of invalid prescriptions or
                   pharmacy claims. The Office of Inspector General agrees with CMS’s
                   assertion that invalid prescriber identifiers do not automatically
                   indicate invalid prescriptions or pharmacy claims. However, CMS’s
                   efforts to determine the validity, medical necessity, or appropriateness
                   of Part D prescriptions and drug claims may be limited without valid
                   prescriber identifiers.

                   CMS emphasized that there have been significant improvements in
                   prescriber identifiers since 2007. CMS stated that the significance of
                   invalid DEA numbers used as prescriber identifiers will decrease
                   drastically as the use of NPIs continues to increase. CMS noted that
                   the top 10 invalid prescriber identifiers listed in our report appeared on
                   3.2 million PDE records in 2007, but that its own analysis indicates that
                   these invalid identifiers appeared on approximately 451,100 PDE
                   records in the last half of 2009. While the reduction in the use of these
                   invalid identifiers is a program integrity improvement, the fact that
                   invalid identifiers continue to appear on any PDE records indicates that
                   CMS and Part D plans are not ensuring the validity of prescriber
                   identifiers on all Part D drug claims.

                   Specifically, CMS concurred with our first recommendation and stated
                   that it will implement a process to periodically review and evaluate
                   trends associated with the validity of prescriber identifiers on PDE
                   records to identify potential ongoing issues. CMS will implement this
                   process after it has taken further steps to remind Part D plans and
                   pharmacies of NPI requirements.


 OEI-03-09-00140   I N VA L I D P R E S C R I B E R I D E N T I F I E R S   ON   M E D I C A R E PA R T D D R U G C L A I M S   iii
E X E C U T I V E                          S U             M M A R Y


                   CMS concurred with our second recommendation and stated that it will
                   issue guidance instructing Part D plans to implement policies and
                   procedures to identify and review invalid prescriber identifiers on
                   Part D claims.




 OEI-03-09-00140   I N VA L I D P R E S C R I B E R I D E N T I F I E R S   ON   M E D I C A R E PA R T D D R U G C L A I M S   iv
   T A B L E          O F            C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         FINDINGS ................................................. 9
                    $1.2 billion in Medicare Part D prescription drug claims
                    contained invalid prescriber identifiers in 2007 . . . . . . . . . . . . . . . 9

                    Identifiers on 17 percent of the drug claims with invalid
                    prescriber identifiers did not conform to format specifications . . . 10

                    Ten invalid identifiers accounted for 17 percent of the drug
                    claims with invalid prescriber identifiers . . . . . . . . . . . . . . . . . . . 11


         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
                    Agency Comments and Office of Inspector General Response . . . . 14


         A P P E N D I X . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
                    A: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
   I N T R O D U C T I O N


                  OBJECTIVE
                  To determine the extent to which invalid prescriber identifiers were
                  used on Part D prescription drug event (PDE) records in 2007.


                  BACKGROUND
                  The Medicare Prescription Drug, Improvement, and Modernization Act
                  of 2003 established Part D to provide an optional prescription drug
                  benefit for all Medicare beneficiaries. The Centers for Medicare &
                  Medicaid Services (CMS) contracts with private companies, called plan
                  sponsors, to administer the benefit through Part D drug plans. Plans
                  provide Part D benefits to enrollees and submit drug claims data to
                  CMS for plan payment calculations. Total Part D program expenditures
                  were approximately $49.5 billion in 2007 and $49.3 billion in 2008. 1, 2
                  Oversight of the Part D program is one of the top management and
                  performance challenges that currently face the Department of Health &
                  Human Services (HHS). 3 Prescriber identifiers on Part D drug claims
                  are valuable program integrity safeguards. The prescriber identifier
                  indicates that a legitimate practitioner has prescribed drugs for a
                  Part D enrollee and enables Part D plans and CMS, as part of
                  postpayment reviews and investigations, to determine who prescribed
                  covered drugs. The success of these program integrity activities may be
                  limited without valid prescriber identifiers on Part D drug claims.
                  Part D Prescription Drug Claims
                  Pursuant to sections 1860D-15(c)(1)(C) and (d)(2) of the Social Security
                  Act, as a condition of payment, all Part D plans must submit data and
                  information necessary for CMS to carry out Part D payment provisions.
                  Plans submit an electronic record to CMS for each covered prescription
                  filled for their enrollees. This electronic record, called a PDE record,
                  contains drug cost and payment data fields that enable CMS to make
                  payments to plans and oversee the Part D benefit. In 2007, the PDE
                  record contained 37 required data fields, including drug cost, payment,


                    1 2008 Annual Report of the Boards of Trustees of the Federal Hospital Insurance and
                  Federal Supplementary Medical Insurance Trust Funds, March 25, 2008, p. 5. Available
                  online at http://www.cms.hhs.gov/ReportsTrustFunds/. Accessed on March 3, 2009.
                    2 2009 Annual Report of the Boards of Trustees of the Federal Hospital Insurance and
                  Federal Supplementary Medical Insurance Trust Funds, May 12, 2009, p. 5. Available
                  online at http://www.cms.hhs.gov/ReportsTrustFunds/. Accessed on January 26, 2010.
                      3 HHS,FY 2008 Agency Financial Report, Section III. November 17, 2008, p. III-3.
                  Available online at http://www.hhs.gov/afr/. Accessed on October 19, 2009.

OEI-03-09-00140   I N VA L I D P R E S C R I B E R I D E N T I F I E R S   ON   M E D I C A R E PA R T D D R U G C L A I M S   1
I N T R O D        U C T               I O N


                    enrollee, plan, drug, pharmacy, and prescriber identifier fields. Part D
                    plans submitted almost 1 billion PDE records to CMS in 2007.
                    Prescriber Identifiers on Prescription Drug Claims
                    CMS requires that PDE records submitted to plans in standard
                    electronic National Council for Prescription Drug Programs format
                    contain an identifier for the drug’s prescriber. According to CMS
                    requirements for submitting PDE data, some of the PDE data fields
                    “ … such as pharmacy and prescriber identifiers will be used for
                    validation of the claims as well as for other legislated functions such as
                    quality monitoring, program integrity, and oversight.” 4 In chapter 9,
                    section 50, of the Medicare Prescription Drug Benefit Manual, CMS
                    recommends that sponsors prepare and review reports of
                    drug-prescribing patterns by physician to identify potential prescriber
                    fraud. However, according to CMS, it does not have any edits in place
                    to check the data in the prescriber identifier field on PDE records.

                    The pharmacy that fills an enrollee’s prescription enters the prescriber
                    identifier on the drug claim. The prescriber identifier qualifier field on
                    the PDE record contains one of four codes that correspond to the type of
                    identifier entered in the prescriber identifier field. As defined by CMS,
                    the prescriber identifier field on standard format drug claims:

                                 will contain the prescriber’s unique identification number.
                                 CMS will transition to use of the national provider identifier
                                 (NPI) when it is implemented. In the interim, CMS requires
                                 use of a DEA [Drug Enforcement Administration] number
                                 whenever it uniquely identifies the prescriber and is allowed by
                                 state law. In other cases, the prescriber’s state license number
                                 or Unique [Physician] Identification Number (UPIN#) shall be
                                 used. 5
                    CMS does not require the prescriber identifier and prescriber identifier
                    qualifier fields to be completed on Part D drug claims submitted to
                    plans in nonstandard format, such as beneficiary-filed claims and paper
                    claims.
                    National Provider Identifier. The administrative simplification provisions of
                    the Health Insurance Portability and Accountability Act of 1996 (HIPAA),
                    P.L. 104-191, § 262, mandated that the Secretary of HHS adopt a standard


                        4 CMS,         Instructions: Requirements for Submitting Prescription Drug Event Data (PDE),
                    April 27, 2006, pp. 5–6.
                        5 CMS, op. cit., p. 13.


 OEI-03-09-00140    I N VA L I D P R E S C R I B E R I D E N T I F I E R S   ON   M E D I C A R E PA R T D D R U G C L A I M S   2
I N T R O D        U C T               I O N


                    unique health identifier for health care providers. 6 Beginning May 23,
                    2005, providers were able to start applying for an NPI. 7 Since May 23,
                    2008, NPIs have been used to identify health care providers to their health
                    care partners—such as health plans, clearinghouses, and other
                    providers—on all covered electronic health care transactions. The NPI is
                    intended to replace provider identifiers that have traditionally been used
                    in standard health care transactions. CMS discloses certain NPI data to
                    the public on its Web site. These data are available in a query-only
                    database known as the NPI Registry and a downloadable file that is
                    updated monthly.

                    Some drug prescribers are not covered entities under HIPAA and may
                    choose not to obtain an NPI. 8 In a May 2008 memorandum to Part D
                    plan sponsors, CMS clarified that prescriber identifiers that are not
                    NPIs may be used on Part D drug claims when a prescriber does not
                    have an NPI or when the pharmacy cannot obtain a prescriber’s NPI. 9
                    CMS stressed that plans and pharmacies “should make all reasonable
                    efforts to obtain NPIs in the Prescriber ID field,” but that plans are not
                    permitted to establish point-of-sale claims-processing edits that would
                    reject claims without NPIs in the prescriber identifier field. CMS stated
                    in the memorandum that plans “should establish alternative policies
                    and procedures outside of their claims processing that address potential
                    non-compliance with NPI prescriber ID requirements ….” CMS
                    required Part D sponsors to attest that enrollee access to Part D drugs
                    would not be hindered because of pharmacy claims without prescribers’
                    NPIs after May 23, 2008—the date of full NPI implementation.
                    Drug Enforcement Administration registration number. A DEA registration
                    number may be used to identify the drug prescriber on a PDE claim.
                    DEA regulations require every individual or entity that handles


                        6 42 U.S.C. §§ 1320d and 1320d-2.
                        7 CMS, MLN Matters Number MM4320, January 1, 2006. Available online at
                    http://www.cms.hhs.gov/MLNMattersArticles/downloads/MM4320.pdf. Accessed on
                    January 26, 2010.
                       8 69 Fed. Reg. 3445 (Jan. 23, 2004). Covered entities under HIPAA include health plans,
                    health care clearinghouses, and health care providers who transmit health information in
                    electronic form in connection with standard health care transactions. HIPAA
                    Administrative Simplification: National Plan and Provider Enumeration System Data
                    Dissemination, 72 Fed. Reg. 30011 (May 30, 2007); 45 CFR § 162.404.
                      9 CMS, Prescriber Identifier on Part D NCPDP Pharmacy Claims Transactions,
                    May 1, 2008. Available online at
                    http://www.cms.gov/PrescriptionDrugCovContra/Downloads/MemoNPIPrescriberID_05.01.0
                    8v2.pdf. Accessed on September 21, 2009.

 OEI-03-09-00140    I N VA L I D P R E S C R I B E R I D E N T I F I E R S   ON   M E D I C A R E PA R T D D R U G C L A I M S   3
I N T R O D        U C T               I O N


                    controlled substances to be registered with DEA unless it is exempt by
                    regulation. 10 DEA registration grants practitioners Federal authority
                    to handle controlled substances. 11 DEA provides a database of active
                    and retired DEA registrants to the National Technical Information
                    Services of the Department of Commerce.
                    Unique Provider Identification Number. A UPIN may be used to identify a
                    prescriber on a PDE claim. The Consolidated Omnibus Budget
                    Reconciliation Act of 1985 required CMS to establish UPINs for all
                    physicians who provide services to Medicare beneficiaries. In 1994,
                    CMS expanded the use of UPINs to other health care providers, such as
                    nurse practitioners, and to group physician practices. The UPIN
                    Registry contains information on all assigned UPINs. CMS ceased
                    issuing UPINs in June 2007 and retired the UPIN Registry. The data
                    in the UPIN Registry are still available and current as of the final June
                    2007 update.
                    State license number. A State license number may also be used in the
                    prescriber identifier field on a PDE claim. Medical licenses are typically
                    granted to physicians and other medical practitioners by the board of
                    medicine in each State. These boards set their own rules and regulate
                    the practice of medicine in their States. Practitioners cannot obtain
                    DEA registration without a State medical license.

                    We excluded from our review PDE records that contained prescriber
                    identifiers classified as State license numbers because we did not have
                    access to a national database of State license numbers and these records
                    made up only 1.3 percent of all Part D claims in 2007.
                    Part D Program Oversight and Prescriber Identifiers
                    CMS contracts with outside entities, known as Medicare Drug Integrity
                    Contractors (MEDIC), to address potential fraud, waste, and abuse
                    related to the Part D benefit. MEDICs are required to identify and
                    investigate potential Part D fraud and abuse and identify Part D
                    program vulnerabilities. MEDICs must submit a quarterly report to
                    CMS describing vulnerabilities identified during the previous quarter.
                    Two MEDICs identified problems with invalid prescriber identifiers on


                        10 21 CFR § 1301.11.
                        11 Ibid. The Controlled Substances Act defines a practitioner as “a physician, dentist,
                    veterinarian, scientific investigator, pharmacy, hospital, or other person licensed,
                    registered, or otherwise permitted to distribute, dispense, conduct research with respect to,
                    administer, or use in teaching or chemical analysis, a controlled substance in the course of
                    professional practice or research,” 21 U.S.C. § 802(21).

 OEI-03-09-00140    I N VA L I D P R E S C R I B E R I D E N T I F I E R S   ON   M E D I C A R E PA R T D D R U G C L A I M S   4
I N T R O D        U C T               I O N


                    PDE claims in vulnerability reports provided to CMS in 2007 and 2008.
                    In these reports, MEDICs documented concerns about their inability to
                    investigate Part D prescription fraud without valid prescriber
                    identifiers.
                    Related Office of Inspector General Work
                    The Office of Inspector General (OIG) has issued a number of reports
                    regarding problems with UPINs used to identify ordering physicians on
                    medical equipment claims, including invalid and inactive UPINs,
                    inappropriate use of surrogate UPINs, and UPINs representing
                    deceased physicians. 12, 13 OIG found that the lack of edits or other
                    reviews that validate UPINs listed on Medicare durable medical
                    equipment claims presents a vulnerability that has allowed millions of
                    dollars in questionable claims to be paid. 14
                    In February 2009, OIG issued its most recent report on invalid
                    identifiers, entitled Medicare Payments in 2007 for Medical Equipment
                    and Supply Claims With Invalid or Inactive Referring Physician
                    Identifiers (OEI-04-08-00470). OIG reported that Medicare allowed
                    almost $34 million in 2007 for medical equipment and supply claims
                    with invalid or inactive referring physicians’ UPINs, including
                    $5 million for claims with deceased referring physicians’ UPINs. That
                    report also found that Medicare allowed over $300,000 in 2007 for
                    claims with invalid referring physicians’ NPIs. In its recommendations
                    to CMS, OIG noted that while CMS appeared to be implementing
                    system changes to verify that NPIs are submitted in the correct format,
                    it is unclear whether CMS will implement controls to identify invalid or
                    inactive NPIs on Medicare claims.




                        12   Medical Equipment and Supply Claims With Invalid or Inactive Physician Numbers,
                    OEI-03-01-00110, November 2001; and Durable Medical Equipment Ordered With
                    Surrogate Physician Identification Numbers, OEI-03-01-00270, September 2002.
                        13 Under certain conditions, practitioners may use surrogate UPINs when they have not
                    been assigned their own UPINs. Surrogate UPINs are OTH000, PHS000, RES000,
                    RET000, and VAD000.
                        14
                         Medicare Payments for Claims With Identification Numbers of Dead Doctors: Hearing
                    Before the U.S. Senate Committee on Homeland Security and Governmental Affairs
                    Permanent Subcommittee on Investigations, 110th Congress, 2008. Statement of Robert
                    Vito, Regional Inspector General for Evaluation and Inspections, OIG, Department of
                    Health & Human Services.

 OEI-03-09-00140    I N VA L I D P R E S C R I B E R I D E N T I F I E R S   ON   M E D I C A R E PA R T D D R U G C L A I M S   5
I N T R O D        U C T               I O N



                    METHODOLOGY
                    We determined the extent to which invalid prescriber identifiers were
                    used on PDE records in 2007. We excluded certain PDE records from
                    our review, as described below.
                    Data Collection
                    We created a file of PDE records from CMS with dates of service from
                    January 1 to December 31, 2007. We excluded the following types of
                    PDE records from our analysis:

                             Records that contained a prescriber identifier that was classified as
                              a State license number in the prescriber identifier qualifier field.
                              We did not have access to a single national database of State
                              license numbers. These records made up only 1.3 percent of all
                              Part D claims in 2007.

                             Records for noncovered and over-the-counter drugs. We limited our
                              review to PDE records for Part D covered drugs. We also excluded
                              records for over-the-counter drugs because a prescription is not
                              required to obtain them.

                             Records submitted in a nonstandard format, such as records for a
                              beneficiary-filed claim or a paper claim. The prescriber identifier is
                              not required on these PDE records.
                    Definition of valid and invalid prescriber identifiers. To determine whether
                    prescriber identifiers on the remaining PDE claims were valid, we
                    compared them to all of the identifiers enumerated in the three
                    registries listed below.

                    (1) We accessed an active NPI file from December 2008 on the CMS
                    Web site. We also obtained a file containing deactivated NPIs from
                    CMS.

                    (2) We accessed a file of active DEA registrants from December 2008
                    and a file of DEA registration numbers that were retired between
                    January 1, 2006, and December 31, 2008.

                    (3) We accessed CMS’s active and inactive UPIN registries. The data
                    are current as of June 2007.

                    We considered prescriber identifiers to be valid if they were active at
                    any point during 2007 according to the NPI, DEA number, or UPIN
                    registries. We also considered prescriber identifiers to be valid if they
                    were active at any point during 2006 because these identifiers may have


 OEI-03-09-00140    I N VA L I D P R E S C R I B E R I D E N T I F I E R S   ON   M E D I C A R E PA R T D D R U G C L A I M S   6
I N T R O D        U C T               I O N


                    legitimately appeared on drug claims in 2007 because of prescription
                    refills.
                    We considered prescriber identifiers to be invalid if they did not appear
                    in any of the three registries. If a prescriber identifier was once active,
                    but was deactivated or retired before January 1, 2006, we considered it
                    to be invalid for purposes of our review.
                    Data Analysis
                    We used the codes in the prescriber identifier qualifier field to group
                    invalid prescriber identifiers by type. We determined whether invalid
                    identifiers followed format specifications for NPIs, DEA numbers, and
                    UPINs. For invalid identifiers coded as NPIs, we determined whether
                    the identifiers appeared as 10-digit numbers beginning with a 1, 2, 3,
                    or 4. For invalid identifiers coded as DEA numbers, we determined
                    whether the identifiers were nine digits long; contained two letters
                    followed by seven numbers; and began with A, B, F, or M. In addition,
                    we compared them to a verification formula that DEA uses to detect
                    invalid numbers in positions three through nine. For invalid identifiers
                    coded as UPINs, we determined whether the identifiers were six digits
                    long and contained one letter followed by five numbers.

                    We summed six payment fields to calculate Part D plan and enrollee
                    payments to pharmacies for PDE records with invalid prescriber
                    identifiers: Patient Pay Amount, Other True Out-Of-Pocket (TrOOP)
                    Amount, Low-Income Cost-Sharing Subsidy Amount, Patient Liability
                    Reduction Due to Other Payer Amount, Covered D Plan Paid Amount,
                    and Noncovered Plan Paid Amount. These payment fields are defined
                    in CMS’s Instructions: Requirements for Submitting Prescription Drug
                    Event Data and described below.
                      The Patient Pay Amount field lists the dollar amount the
                       beneficiary paid that is not reimbursed by a third party (e.g.,
                       copayments, coinsurance, deductible, or other patient payment
                       amounts).

                      The Other TrOOP Amount field records all qualified third-party
                       payments that contribute to a beneficiary’s TrOOP costs, except for
                       amounts in the Low-Income Cost-Sharing Subsidy Amount and
                       Patient Pay Amount fields.

                      The Low-Income Cost-Sharing Subsidy Amount field contains
                       Medicare payments to plans that subsidize the cost-sharing



 OEI-03-09-00140    I N VA L I D P R E S C R I B E R I D E N T I F I E R S   ON   M E D I C A R E PA R T D D R U G C L A I M S   7
I N T R O D        U C T               I O N




                      The Patient Liability Reduction Due to Other Payer Amount field
                       contains amounts by which patient liability is reduced because of
                       payments by other payers that do not participate in Part D and are
                       not TrOOP eligible.

                      The Covered D Plan Paid Amount field contains the net amount the
                       plan paid for standard benefits (covered Part D drugs).

                      The Noncovered Plan Paid Amount field contains the net amount
                       paid by the plan for benefits beyond the standard benefit.
                    We used PDE records containing invalid prescriber identifiers to
                    calculate summary statistics by invalid identifier, including total Part D
                    payments, total number of Part D enrollees, and total number of
                    pharmacies per invalid prescriber identifier.
                    Limitations
                    We did not validate the accuracy of the NPI, DEA number, and UPIN
                    registries that we used to verify prescriber identifier values on PDE
                    records. In addition, we did not assess the medical appropriateness of
                    the drug claims submitted with invalid prescriber identifiers.
                    Standards
                    This study was conducted in accordance with the Quality Standards for
                    Inspections approved by the Council of the Inspectors General on
                    Integrity and Efficiency.




 OEI-03-09-00140    I N VA L I D P R E S C R I B E R I D E N T I F I E R S   ON   M E D I C A R E PA R T D D R U G C L A I M S   8
F   I N D I N G                  S
       F I N D I N G S

    $1.2 billion in Medicare Part D prescription                   Part D plans are required to
      drug claims contained invalid prescriber                     include prescriber identifiers on the
                              identifiers in 2007                  PDE records they submit to CMS. 15
                                                                   Of all PDE records submitted to
                               CMS in 2007, 95 percent were coded as DEA numbers, 3.6 percent were
                               coded as NPIs, and less than one-tenth of 1 percent were coded as
                               UPINs. 16
                               Our comparison of prescriber identifiers on PDE records for 2007 to
                               NPI, DEA number, and UPIN registry databases reveals that Medicare
                               drug plans and enrollees paid pharmacies $1.2 billion in 2007 for more
                               than 18 million prescription drug claims that contained 527,749 invalid
                               prescriber identifiers. These identifiers are invalid either because they
                               were not listed in the NPI, DEA number, and UPIN registries we
                               reviewed or because they had been deactivated or retired before
                               January 1, 2006. PDE records that contained invalid prescriber
                               identifiers accounted for 2 percent of all PDE records submitted to CMS
                               in 2007.


            Table 1: Part D PDE Records With Invalid Prescriber Identifiers by Identifier Type, 2007

                                                            Number of PDE                                     Percentage of All               Payments for PDE
            Prescriber
                           1                            Records With Invalid                                 PDE Records With               Records With Invalid
            Identifier Type
                                                                 Identifiers                                  Invalid Identifiers                    Identifiers
            DEA number                                                        18,053,408                                         98.24%          $1,223,363,037

            NPI                                                                     309,485                                        1.68%            $23,429,844

            UPIN                                                                        13,445                                     0.07%               $880,294
             Total                                                            18,376,338                                            100%         $1,247,673,175
        1
          The type of prescriber identifier on PDE records was determined using the codes in the prescriber identifier qualifier
        field.
        Source: OIG analysis of CMS’s 2007 PDE records.


                               As shown in Table 1, 98 percent of PDE records that contained invalid
                               prescriber identifiers were coded as DEA numbers according to the
                               prescriber identifier qualifier field. This field contains one of four
                               numeric codes that correspond to the type of identifier reported in the
                               prescriber identifier field. Only 1.7 percent of PDE records with invalid

                                  15 CMS does not require prescriber identifiers to be reported on Part D claims submitted
                               to plans in nonstandard format (e.g., beneficiary-filed claims and paper claims).
                                  16 Another 1.3 percent of PDE records submitted to CMS in 2007 contained prescriber
                               identifiers coded as State license numbers. We excluded these PDE records from our
                               review.

    OEI-03-09-00140            I N VA L I D P R E S C R I B E R I D E N T I F I E R S   ON   M E D I C A R E PA R T D D R U G C L A I M S                     9
F   I N D I N G         S


                      prescriber identifiers were coded as NPIs. Less than one-tenth of 1
                      percent of records with invalid prescriber identifiers were coded as
                      UPINs.


    Identifiers on 17 percent of the drug claims with            Each type of prescriber
     invalid prescriber identifiers did not conform to           identifier has specific length
                                                                 and format requirements. For
                                 format specifications
                                                                 17 percent of the PDE records
                      that contained invalid prescriber identifiers, the identifiers did not
                      conform to length or format specifications. These PDE records
                      represented $213 million in payments by Medicare drug plans and
                      enrollees in 2007.
                      Identifiers did not meet format specifications on 17 percent of PDE records
                      with invalid DEA numbers
                      DEA numbers are nine-character identifiers containing two letters that
                      begin with A, B, F, or M followed by seven numbers. We found that
                      17 percent of PDE records with invalid prescriber identifiers coded as
                      DEA numbers contained identifiers that did not conform to format
                      specifications. For 55 percent of these PDE records, the identifiers were
                      shorter or longer than nine characters. For the remaining PDE records,
                      invalid identifiers were the correct length but contained inappropriate
                      letters, numbers, punctuation marks, or keyboard symbols in one or
                      more of the nine positions. One invalid prescriber identifier coded as a
                      DEA number that did not meet format specifications was a string of
                      nine zeros (000000000). This single invalid identifier accounted for
                      almost 40,000 PDE records worth $3.7 million in 2007.
                      Identifiers did not conform to format specifications on 88 percent of
                      PDE records with invalid NPIs
                      NPIs are 10-digit numbers beginning with a 1, 2, 3 or 4. We found that
                      88 percent of PDE records with invalid identifiers coded as NPIs
                      contained identifiers that did not follow the correct format. For
                      83 percent of these PDE records, the invalid identifiers contained more
                      or fewer than 10 digits. For example, a 6-digit identifier, A00000, was
                      coded as an NPI and appeared on 2,188 PDE records. For the majority
                      of the remaining records, invalid identifiers were the correct length, but
                      contained a character other than 1, 2, 3, or 4 in the first position.
                      Typically, these invalid identifiers began with a zero. While positions
                      2 through 10 of a valid NPI should contain only numbers, we observed



    OEI-03-09-00140   I N VA L I D P R E S C R I B E R I D E N T I F I E R S   ON   M E D I C A R E PA R T D D R U G C L A I M S   10
F    I N D I N G        S


                      invalid NPIs that contained letters, punctuation marks, and keyboard
                      symbols in these positions.
                      Identifiers did not meet format specifications on 91 percent of PDE records
                      with invalid UPINs
                      UPINs are six-character identifiers starting with one letter followed by
                      five numbers or surrogate UPINs. 17 We found that 91 percent of PDE
                      records with invalid prescriber identifiers coded as UPINs contained
                      identifiers that did not appear in the correct format. For 66 percent of
                      these PDE records, the invalid identifiers were longer or shorter than
                      six characters. For the remaining records, the identifiers were the
                      correct length, but often contained numbers or symbols in the first
                      position and letters in the second and third positions.


                                                                In 2007, 527,749 different
    Ten invalid identifiers accounted for 17 percent
                                                                invalid prescriber identifiers
          of the drug claims with invalid prescriber            were used on PDE records.
                                          identifiers           However, 10 of these invalid
                      identifiers accounted for 17 percent of all PDE records with invalid
                      prescriber identifiers in 2007. Medicare drug plans and enrollees paid
                      pharmacies $237 million in 2007 for drug claims that contained these
                      10 invalid identifiers.
                      Although these invalid identifiers are the same length as a valid DEA
                      number, the identifiers are suspect because they contain inappropriate
                      letters and repeating or sequential number strings. We compared these
                      10 identifiers to a verification formula that DEA uses to detect invalid
                      numbers in positions three through nine. We found that the numbers in
                      the identifiers meet the requirements of this formula. However, we
                      confirmed with DEA that nine of these identifiers were never valid DEA
                      numbers and that the remaining identifier had been retired in 2005.
                      Table 2 displays the number of PDE records and the amount of plan and
                      enrollee payments in 2007 associated with each of the top 10 invalid
                      identifiers.




                          17 Eight percent of PDE records with invalid UPINs as prescriber identifiers contained
                      surrogate UPINs. We did not compare surrogate UPINs to UPIN format specifications.

    OEI-03-09-00140   I N VA L I D P R E S C R I B E R I D E N T I F I E R S   ON   M E D I C A R E PA R T D D R U G C L A I M S   11
F   I N D I N G         S



                         Table 2: PDE Records and Payments for Top 10 Invalid Prescriber Identifiers
                         in 2007
                                                                                                   Number of PDE                     Plan and Enrollee
                         Invalid Prescriber Identifier
                                                                                                Records for Invalid                Payments for Invalid
                                                                                                         Identifier                          Identifier
                         AA0000000                                                                                1,754,892               $104,670,821

                         AB1111119                                                                                   429,049               $47,664,819

                         ZZ4567890                                                                                   194,080               $31,242,291

                         AB1234563                                                                                   160,923               $10,283,875

                         AA1111119                                                                                   121,383                $7,980,938

                         AB5555555                                                                                   106,282                $9,413,610

                         CC1462667                                                                                   103,329                $6,949,677

                         AS1111119                                                                                   101,584                $6,943,650

                         AS1234563                                                                                     94,104               $6,373,417

                         AM1111119                                                                                     86,241               $5,642,300
                              Total                                                                               3,151,867               $237,165,398
                         Percentage of all records
                         and payments with invalid                                                                    17.15%                    19.01%
                         identifiers

                      Source: OIG analysis of CMS’s 2007 PDE records.


                      A single invalid prescriber identifier, AA0000000, was recorded on
                      almost 1.8 million PDE records in 2007 for 151,269 beneficiaries
                      enrolled with 248 different Part D plan sponsors. In other words,
                      10 percent of all PDE records with invalid prescriber identifiers in 2007
                      contained this one invalid identifier. Part D plans and Medicare
                      enrollees paid pharmacies almost $105 million for these PDEs.
                      Top invalid identifiers were used on prescription drug claims worth more
                      than $10,000 each
                      We found that 5 of the 10 top invalid identifiers listed in Table 2 were
                      used on claims for very expensive prescription drugs in 2007. These
                      invalid identifiers appeared on individual PDE records with payment
                      amounts totaling more than $10,000 each. Payment amounts ranged
                      from $10,057 to $17,998 for a single claim. The top invalid prescriber
                      identifier, AA0000000, appeared on 15 drug claims worth more than
                      $10,000 each. The invalid identifier ranked second in Table 2,
                      AB1111119, was used on five individual drug claims worth more than
                      $11,000 each. The invalid prescriber identifier ranked third in Table 2,
                      ZZ4567890, was used on 10 claims worth more than $10,000 each.

    OEI-03-09-00140   I N VA L I D P R E S C R I B E R I D E N T I F I E R S   ON   M E D I C A R E PA R T D D R U G C L A I M S                    12
F   I N D I N G         S


                      One large company accounted for the majority of PDE records that
                      contained a top invalid prescriber identifier
                      Nine of the ten top invalid prescriber identifiers displayed in Table 2
                      were used on Part D drug claims submitted by thousands of individual
                      pharmacies in 2007. However, the remaining invalid identifier,
                      ZZ4567890, was used on drug claims that were submitted using
                      37 different pharmacy provider numbers. In 2007, over 99 percent of
                      the PDE records that contained the ZZ4567890 prescriber identifier
                      were submitted by a single company under multiple provider numbers
                      that reflect a number of the company’s locations across the country.
                      This company is a large pharmacy benefit manager and mail-order
                      pharmacy.




    OEI-03-09-00140   I N VA L I D P R E S C R I B E R I D E N T I F I E R S   ON   M E D I C A R E PA R T D D R U G C L A I M S   13
   R E C O M M E N D A T I O N S



                  Prescriber identifiers are valuable Part D program safeguards. These
                  identifiers are the only data on Part D drug claims used to indicate that
                  legitimate practitioners have prescribed medications for Medicare
                  enrollees. The success of prepayment and postpayment reviews and
                  fraud investigations may be limited without valid prescriber identifiers
                  on Part D drug claims.

                  Based on a review of PDE records submitted to CMS in 2007, our
                  evaluation found that $1.2 billion in Part D drug claims contained
                  invalid prescriber identifiers. We did not, however, assess the medical
                  appropriateness of the drug claims submitted with these invalid
                  prescriber identifiers.

                  We conclude that CMS and Part D plans have not instituted adequate
                  procedures to detect invalid prescriber identifiers. CMS and plans do
                  not verify that prescriber identifiers are enumerated in NPI, DEA
                  number, or UPIN registries, nor do they apply claims-processing edits to
                  check prescriber identifiers against known format requirements.

                  To address these concerns, we recommend that CMS:
                  Conduct periodic reviews to ensure the validity of prescriber identifiers
                  used on PDE records.

                  Require Part D plans to institute procedures to (1) identify invalid identifiers
                  in the prescriber identifier field on Part D drug claims and (2) flag for review
                  Part D drug claims that contain invalid identifiers in the prescriber identifier
                  field.


                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS concurred with both of our recommendations. CMS stated that it
                  agrees that invalid prescriber identifiers can hinder program oversight
                  efforts for monitoring prescribing practices, but that invalid prescriber
                  identifiers are not an automatic indication of invalid prescriptions or
                  pharmacy claims. OIG agrees with CMS’s assertion that invalid
                  prescriber identifiers do not automatically indicate invalid prescriptions
                  or pharmacy claims. However, CMS’s efforts to determine the validity,
                  medical necessity, or appropriateness of Part D prescriptions and drug
                  claims may be limited without valid prescriber identifiers.




OEI-03-09-00140   I N VA L I D P R E S C R I B E R I D E N T I F I E R S   ON   M E D I C A R E PA R T D D R U G C L A I M S   14
R   E C O        M M E N D A T                             I O N                    S


                      CMS emphasized that there have been significant improvements in
                      prescriber identifiers since 2007. CMS stated that the majority of
                      prescriber identifiers on 2009 PDE records were NPIs, since NPIs
                      became the standard identifier on electronic health care transactions in
                      May 2008. CMS stated that the significance of invalid DEA numbers
                      used as prescriber identifiers will decrease drastically as the use of
                      NPIs continues to increase. CMS noted that the top 10 invalid
                      prescriber identifiers listed in our report appeared on 3.2 million PDE
                      records in 2007, but that its own analysis indicates that these invalid
                      identifiers appeared on approximately 451,100 PDE records in the last
                      half of 2009. While the reduction in the use of these invalid identifiers
                      is a program integrity improvement, the fact that invalid identifiers
                      continue to appear on any PDE records indicates that CMS and Part D
                      plans are not ensuring the validity of prescriber identifiers on all Part D
                      drug claims.

                      Specifically, CMS concurred with our first recommendation and stated
                      that it will implement a process to periodically review and evaluate
                      trends associated with the validity of prescriber identifiers on PDE
                      records to identify potential ongoing issues. CMS stated that it will
                      implement this process after it has taken further steps to remind Part D
                      plans and pharmacies of NPI requirements.

                      CMS concurred with our second recommendation and stated that it will
                      issue guidance instructing Part D plans to implement policies and
                      procedures to identify and review invalid prescriber identifiers on
                      Part D claims. The guidance will include a reminder that CMS expects
                      plans to have procedures in place outside of their claims processing to
                      address potential noncompliance with NPI prescriber ID requirements.
                      CMS stated that “Part D sponsors and CMS [must] strike a balance
                      between ensuring valid prescriber identifiers on all Part D claims and
                      ensuring beneficiary access to legitimate, medically necessary Part D
                      prescriptions.” CMS stated that it will continue to instruct Part D
                      sponsors not to implement point-of-sale edits to reject Part D claims
                      with “invalid” prescriber identifiers because of the significant potential
                      to interrupt medically necessary drug therapies.
                      The full text of CMS’s comments is provided in Appendix A.




    OEI-03-09-00140   I N VA L I D P R E S C R I B E R I D E N T I F I E R S   ON   M E D I C A R E PA R T D D R U G C L A I M S   15
                     A P PEN D                          x         A


Agency Comments




 {4
  ./'..~'iP"I(.'Q.lct,




  .J
  ",",,-""':
     «~)<<Ga   (;.
                           DEPARTMENT OF HEALTH & HUMAN SERVICES                                      Centers for Medicare & Medicaid Services


                                                                                                      Administrator
                                                                                                      Washington, DC 20201




                         .DATE:               APR - 5 20i0
                         TO: 	          Daniel R. Levinson 

                                        Inspector General 


                         FROM: 	        Charlene Frizzera 
 /S/
                                        Acting Administrator 


                         SUBJECT: 	 Office of Inspector General (orG) Draft Report: "Invalid Prescriber Identifiers
                                    on Medicare Part D Drug Claims" (OEI-03-09-00140)


                         Thank you for the opportunity to review and comment on this orG draft report to determine the
                         extent to which invalid prescriber identifiers were used on Part D prescription drug event (PDE)
                         records in 2007. The Centers for Medicare & Medicaid Services (CMS) understands that
                         prescriber identifiers on PDE records can provide valuable infOimation for program oversight
                         and, therefore, acknowledges the importance of collecting valid prescriber identifiers.

                         The CMS concurs with the report recommendations. We would like to provide some
                         clarification about payments of $1 ,2 billion you identified were made for invalid claims. The
                         prescriber identifier is only 1 of 37 data elements that CMS collected on each PDE in 2007 is not
                         generally indicative of invalid prescriptions. Instead, it often reflects that the pharmacy did not
                         have access to the prescriber's DEA number when filling prescriptions for non-controlled
                         substances. So while CMS agrees that invalid prescriber identifiers can hinder program
                         oversight efforts for monitoring prescribing practices of specific prescribers, this is not an
                         automatic indication for invalid prescriptions or pharmacy claims,

                         In addition, CMS wishes to emphasize that there have been significant improvements in
                         prescriber identifiers since 2007. As mentioned in the report, the national provider identifier
                         (NPI) became the standard identifier on electronic health care transactions as of May 23,2008.
                         As a result of that change, the majority of prescriber identifiers reported on 2009 PDEs were
                         NPls, compared to the use of DE A numbers in 2007. A~ the percentage of prescriber NPIs
                         continues to increase, the significance of invalid prescriber DEA numbers will decrease
                         drastically. For example, while the orG "Top 10 lnvalid Prescriber Identifiers" (all DEA
                         numbers) accounted for approximately 3,2 million PDEs in 2007, an ad hoc CMS analysis
                         showed only approximately 451.1 00 instances of those same DEA numbers (or .08 percent of all
                         PDE records) in the last 6 months of2009. Moreover, unlike invalid prescriber DEA numbers,
                         the oro report did not identify default prescriber NPls as a source of invalid prescriber
                         identifiers. Accordingly, CMS will take this into account when considering future actions or
                         guidance.




   OEI·03·09·00140                     INVALID PRESCRIBER IDENTIFIERS ON MEDICARE PART D DRUG CLAIMS                                             16
A   P   P E N D       I X              ~            A




    OEI-03-09-00140   I N VA L I D P R E S C R I B E R I D E N T I F I E R S   ON   M E D I C A R E PA R T D D R U G C L A I M S   17
      A C K N O W L E D G M E N T S


                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and Linda M. Ragone, Deputy Regional Inspector
                  General.

                  Amy Sernyak served as the team leader for this study. Other principal
                  Office of Evaluation and Inspections staff from the Philadelphia
                  regional office who contributed to the report include Emily Multari;
                  central office staff who contributed include Eddie Baker, Jr.,
                  David Graf, and Rita Wurm. We also would like to acknowledge the
                  assistance of Jeffrey Cohen and Amanda Fleck from the Office of
                  Inspector General’s Office of Audit Services.




OEI-03-09-00140   I N VA L I D P R E S C R I B E R I D E N T I F I E R S   ON   M E D I C A R E PA R T D D R U G C L A I M S   18
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
